No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

DERRICK E. STEILMAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I hereby certify and declare that true and exact copies of the Petition for Writ of Certiorari
to the United States Court of Appeals of the Ninth Circuit and Motion for Leave to Proceed in
Forma Pauperis were mailed, first-class postage prepaid, this 13th day of September, 2021, to all
parties required to be served as follows: Solicitor General, Department of Justice, Washington,
D.C., 20530; Mr. C. Mark Fowler, Assistant Attorney General, Attorney General's Office,
Montana Department of Justice, P.O. Box 201401, Helena, MT 59620-1440; and Mr. Derrick E.
Steilman, ID #782010, Stafford Creek Correction C

191 Constantine Way, Aberdeen, WA

98520.

A THONY R.
HER
Federal Defender for the District of Montana
*DAVID F. NESS, Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
*Counsel of Petitioner

